No. 20In The

Supreme Court of the United States
Cheryl A Wolf
Raymond J Fallica
Mary Piscitello
Petitioners
v.
United States
Respondent

CERTIFICATE OF COMPLIANCE
Petitioner(s) As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 8.889 words, excluding the parts of the petition
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 20, 2020

Raymond J Fallica Pro Se
Administrator D.O.D. Contractor Cage Code 03PL0
6 Ethel Court
Wheatley Heights NY 11798
Tel (631) 374-4649

RECEIVED
may

2 7 2020

I SUPREmFcOURT'u^

